HHS/OIG - Audit,"Review of the Administration for the Children and Families Discretionary Grant Number 90CT0010 Awarded to Fordham University for the Period September 30, 1997 through September 29, 2000,"(A-02-01-01014)
Department
of Health and Human Services
"Review of the Administration for the Children and Families Discretionary Grant Number 90CT0010 Awarded to Fordham
University for the Period September 30, 1997  Through September 29, 2000," (A-02-01-02003)
May 22, 2002
Complete
Text of Report is available in PDF format (2.33 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of the Administration for Children and Families Discretionary Grant
Number 90CT0010 awarded to Fordham University for the period September 30, 1997 through September 29, 2000.  The objective
was to evaluate the grantee's performance in achieving project objectives and complying with terms and conditions of the
grant project.  In general, Fordham met the project goals of improving child welfare services through interdisciplinary
training to public agency workers and supervisors and performing other project tasks.  However, we found several exceptions
with respect to compliance, with the terms and conditions of the grant.  Specifically, Fordham awarded a scholarship
to a recipient who did not meet the project qualifications; Fordham did not publish articles pertaining to the project
lessons learned and conference proceedings in keeping with the approved project goals, and course evaluations and attendance
forms were not always retained by Fordham.  We recommended a financial adjustment, compliance with all conditions
and terms of future grants and establishment of record retention policies.